                     Closeout of M90100037

This case was received in OIG on October 25, 1990.      The
                              a former administrative staff
                                         bout 11 members of

                                              rassment and abuse
of the complainant by another employee.
OIG finds that there is no genuine allegation of misconduct
involved in this complaint. The subjects are not even accused of
perpetrating harassment and abuse, but only of allowing it. This
does not appear to be research misconduct under N S F ' s
regulations.
The complainant should have availed herself of the services of
offices at the university, such as a union or ombudsman, if she
did not. Since she has left the university, it is difficult to
recommend other agencies that might be helpful to her.     In any
event, the case does not concern OIG and should be closed.




Copy: Inspector General
      Assistant Inspector General for Oversight    /?-P.'FART   i
